HHS/OIG, Audit -"Audit of Payments for Medicaid Services to Deceased Recipients, October 1, 1998 Through September 30, 2001 - Arizona Health Care Cost Containment System,"(A-05-03-00073)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Payments for Medicaid Services to Deceased Recipients, October 1, 1998 Through September 30, 2001 - Arizona
Health Care Cost Containment System," (A-05-03-00073)
October 31,  2003
Complete
Text of Report is available in PDF format (47 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the review was to determine the amount of Medicaid overpayments resulting from payments to providers
for medical services provided after the recipients’ death.  We found that for the period October 1, 1998 through
September 30, 2001, the Arizona State agency identified and adjusted payments for medical services provided after death.  We
concluded that the State agency had procedures in place to ensure that payments for services provided after the death of
a recipient were recovered.